                                     SOCIAL SECURITY

MEMORANDUM

Date:   January 27, 2006                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Outstanding Debt (A-02-05-15116)

        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. Attached is the final report presenting the
        results of two of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over the
               data generation, calculation, and reporting processes for the specific
               performance indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2004
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:

           •   Percent of Outstanding Old Age, Survivors, and Disability Insurance Debt in a
               Collection Arrangement.
           •   Percent of Outstanding Supplemental Security Income Debt in a Collection
               Arrangement.
Page 2 – The Commissioner

Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                               S
                                               Patrick P. O’Carroll, Jr.
Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE INDICATOR AUDIT:
       OUTSTANDING DEBT


    January 2006   A-02-05-15116




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

Date:     January 23, 2006

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Outstanding Debt (A-02-05-15116)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration. 4

          3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
             2004 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.




1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
    GAO-03-273G, Assessing Reliability of Computer Processed Data, October 2002, p. 3.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                      1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2004 PAR:

    Performance Indicator                       FY 2004 Goal               FY 2004 Reported Results
    Percent of Outstanding Old
    Age, Survivors, and
    Disability Insurance                             38%                              42.2%
    (OASDI) Debt in a
    Collection Arrangement
    Percent of Outstanding
    Supplemental Security
                                                     55%                    53.5% (May – September) 5
    Income (SSI) Debt in a
    Collection Arrangement

Under the OASDI and SSI programs, SSA issues benefit payments to millions of
beneficiaries for various entitlement programs. At times, SSA pays beneficiaries more
than they are entitled to receive. This results in an overpayment that SSA then
recognizes as an outstanding debt owed by the beneficiary. During the audit period,
SSA had $4 billion dollars of OASDI and SSI debt that had not been resolved (i.e. has
not been collected, removed as not actually an overpayment, waived, or written off
conditionally). New debt that is determined to be an outstanding overpayment eligible
for collection primarily occurs as result of errors in: Wages/Self-Employment Income
(Old Age, and Survivors Insurance (OASI) and SSI), Computations (OASI), Annual
Earnings Test (OASI), Relationship/Dependency (OASI), Substantial Gainful Activity
(DI), Unreported Death (DI), Workers’ Compensation (DI) and Financial Accounts (SSI).

SSA classifies outstanding debt in four principal categories: 1) newly established debt
(i.e. debt in a due process period and less than 60 days old), 6 2) debt under appeal
(i.e. debt with an appeal pending and less than 90 days old), 3) debt in a collection
arrangement (i.e. collection is anticipated or debt is being collected, primarily through
timely installments or monthly benefit withholding), and 4) debt not in a collection
arrangement (i.e. all remaining debt that is neither in collection nor anticipated to be
collected, but requires further action). These performance indicators were developed to
target an average annual percentage of debt in a collection arrangement compared to
the overall status of outstanding debt.

When an overpayment is detected, it is initially placed in the "newly established debt"
category and may remain in this category for up to 60 days, the maximum period
permitted for a beneficiary to appeal or apply for a waiver. After 60 days, the debt
moves to either “debt in a collection arrangement” or “debt not in a collection
5
 SSA’s Office of Quality Assurance and Performance Assessment (OQA) determined that the data from
October 2003 – April 2004 was incorrect due to a system error that resulted in an inaccurate calculation
during this period. As a result, the data reported was for the period May 2004 - September 2004.
6
    Debt in this category can be appealed at any time during the 60-day period.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                         2
arrangement." At any time, if the overpayment has been determined to be “debt in a
collection arrangement,” the amount would be moved to this category in the monthly
debt report, which is used to calculate the indicator results. Delinquent debt, i.e. “debt
not in a collection arrangement” is typically referred to the Treasury Offset Program and
credit bureaus (i.e. Equifax, TransUnion, Innovis and Experian). 7

At the end of each month, SSA uses software packages (“DEBTCATC” for OASDI and
“SSIDEBT29” for SSI) to review the data generated from the relevant source systems
(Recovery of Overpayment, Accounting and Reporting (ROAR) System for OASDI and
the Supplemental Security Record (SSR) for SSI). The software packages determine
the status of each unresolved debt based on the four principal categories and then sum
the amounts for each principal category to determine the proportion of debt in a
collection arrangement. The percentage calculated represents the proportion of debt in
a collection arrangement for the most recent 12 months. The indicator results
presented and disclosed in the PAR represent a 12-month rolling average.

Performance Indicators’ Calculation

                                                               Total Dollar Amount in a Collection
        % of Debt in a Collection
                                                   =          Arrangement / Total Dollar Amount of
             Arrangement
                                                                       Outstanding Debt

(For additional detail on the calculation of these indicators, refer to the flowcharts in
Appendix C.)

These performance indicators are linked to the SSA strategic objective to “Prevent
fraudulent and erroneous payments and improve debt management,” 8 which is linked to
the SSA strategic goal “To ensure superior Stewardship of Social Security programs
and resources.” 9 This strategic goal is linked to one of the five Governmentwide goals
on the President’s Management Agenda, “Improved Financial Management,” 10 which
directs agencies to set goals to reduce improper payments for each of their programs. 11
To assess its progress in meeting this objective, SSA established these performance
indicators to measure the percentage of OASDI and SSI debt in a collection
arrangement.

7
 Written-off debt, which includes some delinquent debt, remains eligible for collection and benefit offset,
should the individual return to the benefit rolls; however, this debt is no longer included in the
performance indicators’ calculation.
8
    Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 85.
9
    Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 85.
10
     http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf.
11
  Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 27 states
that SSA uses the terminology “improper payments” and “erroneous payments” interchangeably.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                            3
RESULTS OF REVIEW
We found SSA did not have adequate internal controls over the processes used to
generate, calculate, and report the performance data used in the performance indicators
and did not retain support for the calculations. 12 As a result, we were unable to
examine sufficient support for the reported indicators to conclude on the accuracy of the
calculation. Additionally, the indicators did not provide a clear linkage of: SSA’s
progress to align with existing Federal debt collection laws; relationships to
complementary debt collection measures to enable a comprehensive assessment of
overall debt collection efforts; and SSA’s decision to maintain, not raise, annual
performance targets. Lastly, SSA can further develop a more meaningful indicator to
measure debt that is eligible to be collected.

Internal Controls

We found that SSA did not have sufficient documentation of the indicator’s intended
purpose, automated and manual controls in operation, accountability for indicator
measurement, a comprehensive set of supporting data sources used in the calculation,
and step-by-step procedures to reperform the indicator results from origination to
publication in the PAR. 13 Accordingly, SSA did not comply with standards defined by
the Office of Management and Budget’s (OMB) Circular A-123, Management
Accountability and Control that require, “The documentation for transactions and
management controls, and other significant events must be clear and readily available
for examination.” 14

The following finding is specific to the “Percent of Supplemental Security Income (SSI)
Debt in a Collection Arrangement” performance indicator. During our FY 2004 Financial
Statement Audit, we found that SSA policy was not adhered to for approvals of
overpayment waivers over $2,000 in 1 out of 9 field offices examined. Further, we
found inaccurate overpayment calculations existed in 1 out of 46 overpayments
examined. In addition, during an audit of SSA’s Controls over the Title XVI
Overpayment Waiver Process, 15 the SSA Office of the Inspector General found
significant deficiencies in documentation support and policy decisions for waiver
12
   This statement applies to the performance indicators included in this report and is not intended to apply
directly to SSA’s internal controls over financial reporting.
13
  We held a meeting with the Agency on March 24, 2004, to discuss the Results of Review for these
performance indicators. Subsequent to our meeting, the Agency drafted new documentation to define the
policies and procedures in place during the audit period. We informed the Agency that we would
acknowledge its efforts to improve the indicators’ documentation; however, we were unable to verify or
test the completeness and accuracy of this new documentation as it was not in place during the period of
our audit.
14
     Revision to OMB Circular A-123, Management Accountability and Control, June 21, 1995.
15
  Social Security Administration’s Controls over the Title XVI Overpayment Waiver Process
(A-06-03-13077) issued October 25, 2004.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                            4
approvals. These weaknesses identified in internal controls over overpayment
processing may impact the indicator results, as the overpayments waived would have
affected the denominator for the calculation of this indicator, and thereby incorrectly
increase the percentage reported.

Data Reliability and Accuracy of PAR Presentation and Disclosure

We found that SSA did not archive the data supporting the performance indicators’
calculation. As a result, we were unable to conclude on the reliability of the computer
processed data used to support the performance indicators’ calculation. In addition, as
a result of our inability to recalculate the performance results, we were unable to
determine if the results reported in the PAR were accurately presented and disclosed.
SSA is currently examining data storage possibilities to address this issue.

We found that SSA’s programmers have ALL access to production datasets. This level
of access would allow users to create, delete and update any of the data we reviewed
without appropriate review or approval of the changes. This access level does not
comply with generally accepted standards for limited access control defined by OMB
Circular A-130, National Institute of Standards and Technology (NIST) 800-12, and
NIST 800-14. SSA is currently working to address the risks associated with this finding
through the Standardized Security Profile Project. These datasets should be secured
over the next 3 years.

The following finding is specific to the “Percent of Supplemental Security Income (SSI)
Debt in a Collection Arrangement” performance indicator. We found that SSA did not
use a standard change control process for the Common Business Oriented Language
(COBOL) Programs used in this indicator’s calculation. The COBOL programs,
SSIDBT29 and GOALTOT6, used to calculate the performance measure did not adhere
to the SSA system development life cycle process, QA2/SRCOL. In addition, these
programs are not stored in Endeavor but are maintained in personal libraries, where
they are not subject to SSA's standard system development life cycle process. By not
following the SSA standard change control process, changes to the COBOL programs
may not be authorized, tested, or documented appropriately.

Assessment of Meaningful Performance Measurement

We found that SSA could report more meaningful, outcome-oriented results, by
disclosing complementary measures such as the percentage of debt written off each
year, percentage of new debt being collected each year, and aging reports. Although
several of these indicators are included throughout the PAR, as presented, the
performance indicators’ did not directly disclose sufficient information to enable an
independent reviewer to assess the overall status of debt collection efforts and
progress.

We further found that SSA could develop a more meaningful indicator by only
measuring debt that is eligible to be collected. The current indicators’ denominator



Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                             5
includes newly established debt and debt under appeal, the first and second principal
debt categories, which are not eligible to be collected.

In our Management Letter resulting from the 2004 Financial Statement Audit, we found
SSA did not completely disclose its efforts to improve debt collection in compliance with
the Debt Collection Improvement Act (DCIA) of 1996. 16 SSA disclosed several efforts
to improve debt collection, however, the DCIA authorized SSA to implement several
specific procedures to improve overall collection rates and granted Agencies the
discretion to implement the Act in accordance with policies outlined by the
Commissioner. 17 SSA has determined that certain tools will be followed and phased in
over the next 12-24 months. Clearly linking the indicator to other areas in the PAR and
disclosing SSA’s progress and efforts to improve debt collections using available tools
would make the presentation of the indicator results more meaningful.

We found that SSA did not develop annual, incremental improvement goals for these
performance indicators that supported a clear linkage to the strategic objective to
“Prevent fraudulent and erroneous payments and improve debt management.” 18 SSA
management stated that the Agency sets “maintenance goals” and seeks to achieve the
same level of performance as the previous year. Although this indicator was not
created as part of SSA's Program Assessment Rating Tool (PART) efforts, OMB PART
guidance states, “Goals should be relative to an established baseline, have clear time
frames and targets, and challenge program managers to continuously improve program
performance.” 19 SSA management did not provide an explanation in the PAR to justify
their decision to not establish incremental improvement goals as described in the OMB
PART guidance.




16
     Public Law Number 104-134.
17
  Although the DCIA authorizes SSA to implement the debt collection tools cited in the statute, it does not
require SSA to do so. In addition, this Management Letter comment was closed as a result of testing
completed during the FY 2005 Financial Statement Audit.
18
     Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 85.
19
  http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html, Instructions for the Program
Assessment Rating Tool (Section - II. Strategic Planning, Elements of Yes Answer).



Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                          6
CONCLUSION AND RECOMMENDATIONS

SSA should have adequate controls over the generation, calculation, and reporting of
performance data to ensure a reliable measurement of performance. 20 Equally
important is the development of performance indicators that meaningfully provide an
assessment of the outcome of efforts to improve collection of outstanding debt.
Accordingly, for each performance indicator, we recommend SSA:

1. Improve the documentation of the performance indicators included in this report.
   The documentation should be complete and accurate to define all of the steps
   performed, accountability for measurement, and all internal controls in operation
   used to calculate and report the indicator results in the PAR. SSA management
   should annually update and take ownership of the documentation to enable an
   independent assessment that complies with OMB A-123 guidance.

2. Retain the detailed data used to calculate the performance indicators results that are
   reported in the PAR.

3. Continue to implement the Standardized Security Profile Project to restrict access to
   personnel that should not have the ability to directly modify, create or delete the
   datasets used to calculate the indicators’ results.

4. Provide additional links to other sections of the PAR that discuss progress made
   (e.g. implementation of new debt collection tools) indicating increased alignment with
   laws and regulations that are related to the performance indicators’ results.

5. Provide additional transparency of overall debt collection efforts, link the existing
   indicators to complementary debt collection measures available both in the PAR and
   internal management reports. This linkage should clearly disclose the effect of such
   information on the indicators’ calculation and the overall progress of debt collection
   efforts. The PAR may also include a graphical representation, e.g. a pie chart, to
   identify annual changes in each debt collection category.

6. SSA should consider revising the existing performance measure calculation to
   include in its denominator only debt that is eligible to be collected. Newly
   established debt and debt under appeal, the first and second principal debt
   categories, are not eligible for collection. We suggest that the calculation's
   numerator include debt in a collection arrangement, the third principal debt category,
   and the denominator include both debt in a collection arrangement and debt not in a
   collection arrangement, the fourth principal debt category. This will create a more
   meaningful measure that demonstrates the percent of all debt that was eligible to be
   collected that resulted in a debt collection arrangement.
20
  This includes implementing effective controls, as previously reported in our FY 2004 Financial
Statement Audit for the SSI program, for overpayment waivers to provide additional assurance on the
validity of the performance indicator calculation.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                         7
7. Enhance disclosure of SSA’s decision not to establish incremental improvement
   goals that results in a departure from OMB guidance.

Specific to the performance indicator “Percent of Supplemental Security Income (SSI)
Debt in a Collection Arrangement,” we recommend SSA:

8. Ensure COBOL programs adhere to the SSA System Development Life Cycle. In
   addition, the programs should be maintained in a version control system in the event
   the program must be backed out and reinstalled.

AGENCY COMMENTS
The Agency agreed with four of our recommendations (numbers 1, 3, 5 and 8) and
disagreed with four recommendations (numbers 2, 4, 6 and 7). For recommendation
number 6, SSA considered our suggested change to the performance measure
calculation. However, SSA decided to include all unresolved debt in the formula to be
consistent with other Agency reports related to outstanding debt, such as the quarterly
Treasury Report on Receivables to the Treasury Department. Similarly, for
recommendation number 7, SSA is currently developing new performance measures as
part of the President’s Management Agenda initiative on improper payments.

PWC RESPONSE
We appreciate the Agency’s comments and consideration of our recommendations. In
regard to recommendation number 2, we recognize some of the technical challenges
associated with maintaining such detailed data and we understand the Agency must
weigh the cost and benefit of retaining source data. Although we will incorporate real-
time audit approaches in ongoing performance measure reviews, these alternative audit
steps will not totally negate the Agency’s need to retain detailed documentation. As
such, we continue to believe the Agency needs to develop methods to retain the
detailed data used to calculate the performance indicator results reported in the PAR.
The lack of data inhibits an independent verification of the performance metrics
reported in the PAR.

For recommendation 4, we acknowledge that SSA’s PAR contains some linkage to
other sections of the PAR with information related to outstanding debt. However, we
believe this linkage can be improved. To that end, we have revised recommendation 4
to reflect that we are recommending additional linkage.

With respect to recommendation 6, we consider this closed as SSA considered the
recommendation and made a business decision to do otherwise. In the event that the
newly developed performance indicators referenced in the Agency’s response to
recommendation 7 depart from OMB guidance for goal development, we recommend
that SSA ensure sufficient disclosure of the business reasons for such departures are
included in the PAR.


Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                          8
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)
                                                                Appendix A
Acronyms

 COBOL      Common Business Oriented Language
 DCFAM      Deputy Commissioner of Finance, Assessment, and Management
 DCIA       Debt Collection Improvement Act
 DI         Disability Insurance
 FY         Fiscal Year
 GAO        Government Accountability Office
 GPRA       Government Performance and Results Act
 MBR        Master Beneficiary Record
 MIICR      Management Information Initial Claims Record
 MSSICS     Modernized Supplemental Security Income Claims Systems
 NIST       National Institute of Standards and Technology
 OASI       Old Age and Survivors Insurance
 OASDI      Old Age, Survivors, and Disability Insurance
 OMB        Office of Management and Budget
 OQA        Office of Quality Assurance and Performance Assessment
 OSM        Office of Strategic Management
 PAR        Performance and Accountability Report
 PART       Program Assessment Rating Tool
 ROAR       Recovery of Overpayments & Accounts Receivable
 SSA        Social Security Administration
 SSI        Supplemental Security Income
 SSIPT      Supplemental Security Income Processing Time
 SSIRMS     Supplemental Security Income Records Maintenance System
 SSR        Supplemental Security Record
 U.S.C.     United States Code




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)
                                                                  Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration's (SSA)
Government Performance and Results Act (GPRA) processes. This was
completed through research and inquiry of SSA management. We also
requested SSA to provide various documents regarding the specific programs
being measured as well as the specific measurement used to assess the
effectiveness and efficiency of the related program.

Through inquiry, observation, and other substantive testing, including testing of
source documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the
       Inspector General and other reports related to SSA’s GPRA performance
       and related information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of
       the performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes
       (e.g., spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls
       within and surrounding each of the critical applications to determine
       whether the tested controls were adequate to provide and maintain
       reliable data to be used when measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element
       or source document.
   •   Identified and extracted data elements from relevant systems and
       obtained source documents for detailed testing selections and analysis.
   •   Recalculated the metric or algorithm of key performance indicators to
       ensure mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized
       data, we assessed the completeness and accuracy of that data to
       determine the data's reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by
Agency personnel, of the alignment of the Agency’s mission, goals, objectives,
processes, and related performance indicators. We analyzed how these
processes interacted with related processes within SSA and the existing
measurement systems. Our understanding of the Agency’s mission, goals,
objectives, and processes were used to determine if the performance indicators
appear to be valid and appropriate given our understanding of SSA’s mission,
goals, objectives and processes.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                      B-1
We followed all performance audit standards in accordance with generally
accepted government auditing standards.

In addition to the steps above, we specifically performed the following to test the
indicators included in this report:

PERCENT OF OUTSTANDING OLD AGE, SURVIVORS, AND
DISABILITY INSURANCE (OASDI) DEBT IN A COLLECTION
ARRANGEMENT

   •   Performed an application review over the Title II systems (Modernized
       Claims System, Retirement, Survivors & Disability Insurance Accounting
       and Recovery of Overpayment, Accounting and Reporting (ROAR)).
   •   Performed a general controls review over the environment that supports
       the Title II applications and ROAR.
   •   Inquired of the interface process from the Master Beneficiary Record
       (MBR) to ROAR, including resolution of rejected records.
   •   Inspected a selection of interfaces between the MBR/ROAR and
       performed a count of records.
   •   Reviewed the code to create the DEBTCATC program for
       reasonableness.

PERCENT OUTSTANDING SUPPLEMENTAL SECURITY INCOME
(SSI) DEBT IN A COLLECTION ARRANGEMENT

   •   Performed an application review over the Title XVI systems (Modernized
       Supplemental Security Income Claims Systems and Supplemental
       Security Income Records maintenance System).
   •   Performed a general controls review over the environment that supports
       the Title XVI applications.
   •   Reviewed the Common Business Oriented Language (COBOL) programs
       1 and 2 for reasonableness of the data extraction and summarization of
       the SSI Debt Goal Report.
   •   Inspected users with update access to the program and the SSI Debt Goal
       Report.
   •   Inquired of the process to perform program maintenance over the creation
       of the SSI Debt Goal Report.
   •   Inspected a selection of program maintenances during the fiscal year and
       reviewed to ensure that maintenance followed the Federal Information
       System Controls Audit Manual.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                    B-2
                                                                Appendix C
Percent of Outstanding OASDI Debt in a Collection
Arrangement - 2004 Process Flowchart




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)           C-1
  Percent of Outstanding OASDI Debt in a Collection
  Arrangement - 2004 Process Flowchart Narrative
   •   The Title II overpayment is detected by Social Security Administration
       (SSA) systems or SSA Operations.
   •   An overpayment record is established on the MBR and ROAR.
   •   A notice is sent to the beneficiary and an agreement is established for
       repayment of the outstanding debt.
   •   A program designed by Office of Quality Assurance and Performance
       Assessment called DEBTCATC is run against a back-up copy of the
       ROAR master file and produces monthly debt collection information which
       is used to calculate the performance measure. Using the DEBTCATC
       program, the amounts for each principal category of debt (new debt, debt
       under appeal, debt in a collection arrangement, and debt not in a
       collection arrangement) are summed and the portion in a collection
       arrangement is determined by dividing the amount in that category by the
       total amount of unresolved debt (i.e. the sum of the four principal debt
       categories).
   •   The DEBTCATC report is used as an update to a 12-month rolling
       average done by manual calculation. The 12-month rolling average is
       calculated by dropping off the percent of dollars in collection for the
       earliest month, adding the percent for the latest month and dividing the
       total by 12. The result of that calculation is the goal achievement for the
       current month. The process of calculating the goal is repeated each
       month.
   •   DCFAM provides the information to OSM for the PAR.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                     C-2
Percent of Outstanding SSI Debt in a Collection

Arrangement - 2004 Process Flowchart




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)   C-3
Percent of Outstanding SSI Debt in a Collection

Arrangement - 2004 Process Flowchart Narrative
   •   The Title XVI overpayment is detected by SSA systems or SSA Operations.
   •   An overpayment record is established on the SSR.
   •   A notice is sent to the beneficiary and an agreement is established for repayment
       of the outstanding debt.
   •   A COBOL program called SSIDEBT29 is run against all 20 national file segments
       of the SSR to determine the status of debts.
   •   A second COBOL program is run to total the 20 national file segments and
       produces monthly debt collection information on the SSR National Debt Goal
       Report. The amounts for each principal category of debt (new debt, debt under
       appeal, debt in a collection arrangement, and debt not in a collection
       arrangement) are summed and the portion in a collection arrangement is
       determined by dividing the amount in that category by the total amount of
       unresolved debt (i.e. the sum of the four principal debt categories).
   •   The SSI National Debt Goal report is used as an update to a 12-month rolling
       average done by manual calculation. The 12-month rolling average is calculated
       by dropping off the percent of dollars in collection for the earliest month, adding
       the percent for the latest month and dividing the total by 12. The result of that
       calculation is the goal achievement for the current month. The process of
       calculating the goal is repeated each month.
   •   DCFAM supplies the information to the OSM for PAR.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                          C-4
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM



           December 19, 2005                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Outstanding
           Debt" (A-02-05-15116)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.


           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                               D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"PERFORMANCE INDICATOR AUDIT: OUTSTANDING DEBT" (A-02-05-15116)


Thank you for the opportunity to review and comment on the draft report.


Our responses to the specific recommendations are provided below.


Recommendation 1


Improve the documentation of the performance indicators (PI) included in this report. The
documentation should be complete and accurate to define all of the steps performed,
accountability for measurement, and all internal controls in operation used to calculate and report
the PI results in the Performance and Accountability Report (PAR). SSA management should
annually update and take ownership of the documentation to enable an independent assessment
that complies with the Office of Management and Budget (OMB) A-123 guidance.


Response


We agree. As stated in the report on page 4, footnote 13, we provided updated documentation in
April 2005 to adhere to this recommendation. We will continue to review our policies and
procedures to ensure proper documentation for each fiscal year (FY).


Recommendation 2


Retain the detailed data used to calculate the PIs results that are reported in the PAR.

Response


We disagree. Satisfying this recommendation would require SSA to preserve and maintain,
among other things, data transactions, source code, multiple versions of software and the
operating system in use during the potential audit review period. Staff would then need to be
available to reconstruct all this to support an audit. Further, OMB’s Circular A-11, section
203(f) states “Performance data need not be perfect to be reliable, particularly if the cost and
effort to secure the best performance data will exceed the value of any data so obtained.”




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                      D-2
During the course of the audit, we offered to have the PricewaterhouseCoopers (PwC) auditors
observe the programmers as the goals reports were being generated. PwC also had the
opportunity to conduct their own "real-time" calculation of the performance measure (at or about
the time of the month when the performance measures were being produced) using the programs
and specifications that they were provided. The PwC auditors choose not to do so.


Recommendation 3


Continue to implement the Standardized Security Profile Project (SSPP) to restrict access to
personnel that should not have the ability to directly modify, create or delete the datasets used to
calculate the PIs results.


Response


We agree. The Agency recently reached a critical juncture in the limitation of programmer
access to its most high-risk systems, thus lifting a reportable condition assessment. SSA will
continue to implement and monitor the progress of SSPP. Additionally, SSA will target, for
implementation of SSPP, those systems related to the development of Government Performance
and Results Act performance measures.


Recommendation 4


Clearly link discussions in other sections of the PAR that discuss progress made (e.g.,
implementation of new debt collection tools) indicating increased alignment with laws and
regulations that are related to the PIs results.

Response


We disagree. We believe that the information in the PAR already contains the clear linkage that
is being recommended. In the Debt Management summary on page 218 of the FY 2004 PAR,
SSA’s progress in implementing the various debt collection tools authorized by law are clearly
discussed, as is the performance indicator.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                    D-3
Recommendation 5


Provide additional transparency of overall debt collection efforts; link the existing indicators to
complementary debt collection measures available both in the PAR and internal management
reports. This linkage should clearly disclose the effect of such information on the PIs calculation
and the overall progress of debt collection efforts. The PAR may also include a graphical
representation, e.g., a pie chart, to identify annual changes in each debt collection category.


Response


We partially agree. We agree that the Agency can better link the performance indicator to other
relevant portions of the PAR and how it relates to the President's Management Agenda (PMA)
initiative of "Improper Payments". We believe we already have an appropriate level of
information supporting our debt collection performance indicators in the PAR, and do not
believe it is necessary or appropriate to expand this external document to discuss internal
management reports or add additional graphics on other measures.


Recommendation 6


Consider revising the existing PI calculation to include in its denominator only debt that is
eligible to be collected. Newly established debt and debt under appeal, the first and second
principal debt categories, are not eligible for collection. OIG suggests that the calculation’s
numerator include debt in a collection arrangement, the third principal debt category, and the
denominator include both debt in a collection arrangement and debt not in a collection
arrangement, the fourth principal debt category. This will create a more meaningful measure that
demonstrates the percent of all debt that was eligible to be collected that resulted in a debt
collection arrangement.

Response


We disagree. We considered this option when the measures were being developed, but it was
decided to include all unresolved debt in the formula to be consistent with what the Agency
reports elsewhere as outstanding debt (i.e., the quarterly Treasury Report on Receivables to the
Treasury Department). Additionally, the measures were developed in consultation with OMB,
which is fully aware and in agreement with them.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                  D-4
Recommendation 7


Enhance disclosure of SSA’s decision not to establish incremental improvement goals that
results in a departure from OMB guidance.


Response


We disagree. SSA is in the process of developing increased performance measures for debt
collection as part of the PMA initiative on "Improper Payments".


Recommendation specific only to performance indicator, “Percent of Outstanding SSI Debt in a
Collection Arrangement”


Recommendation 8


Ensure COBOL programs adhere to the SSA Systems Development Life Cycle. In addition, the
programs should be maintained in a version control system in the event the program must be
backed out and reinstalled.


Response


We agree. We will ensure that appropriate controls are established to make certain that no data
is lost in the event the program must be backed out and reinstalled.




Performance Indicator Audit: Outstanding Debt (A-02-05-15116)                                D-5
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
